HHS/OIG, Audit -"Ineligible Medicare Payments To Skilled Nursing Facilities Under the Administrative Responsibility
of Blue Cross and Blue Shield of Kansas, Inc.,"(A-05-04-00033)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments To Skilled Nursing Facilities Under the Administrative Responsibility of Blue Cross
and Blue Shield of Kansas, Inc.," (A-05-04-00033)
June 28, 2004
Complete
Text of Report is available in PDF format (157 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare Skilled Nursing Facility
(SNF) payments, attributable to Blue Cross and Blue Shield of Kansas, Inc. (BCBS of Kansas), contained in a database of
payments made under the administrative responsibility of nine Medicare Fiscal Intermediaries (FI’s).  Our review
of the database estimated that $559,282 of ineligible SNF payments were made under the administrative responsibility of
BCBS of Kansas during calendar years 1997 through 2001.  The overpayments occurred due to the absence of an automated
cross-check, within the Centers for Medicare and Medicaid Services (CMS) Common Working File and the Fiscal Intermediary’s
(FI) claims processing systems, verifying that a three consecutive day inpatient hospital stay occurred prior to SNF admission.  BCBS
of Kansas concurred with our recommendation to recoup the overpayments however, CMS issued a memorandum instructing all
FIs not to initiate any recovery actions.